                                                       Office of Inspector General
                                                      Corporation for National and
                                                               Community Sewice




                OIG REPORT    06-37
                         NUMBER




                                                ZT"~NAL&
                                                COMMUNITY
                                                SERVICE-



                          Prepared by:

              COTTON & COMPANY, LLP
               635 Slaters Lane, 4&Floor
               Alexandria, Virginia 223 14




This report was issued to Corporation management on September 19,2006. Under the
laws and regulations governing audit follow-up, the Corporation is t o make final
management decisions on the report's findings and recommendations no later than
March 19, 2007, and complete its corrective actions by September 19, 2007.
Consequently, the reported findings do not necessarily represent the final resolution of
the issues presented.
                                     ~ x f 7 " " ~ *&
                                                    L
                                     COMMUNITY
                                     SERVICE=



                                 Audit of Grants Awarded to
                  Arizona Governor's Commission on Service and Volunteerism
                                     Audit Report 06-37

OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Cotton & Company, LLP (Cotton) to perfom an audit of
grants awarded to the Arizona Governor's Commission on Service and Volunteerism
(Commission). The audit covered the latest two years of performance through December 31,
2005, for five grants initially awarded during the period February 1, 2002, to January 1,
2005.

Funding authorized for these grants totaled $2.4 million, with costs claimed totaling about
$2.0 million. The audit identified questioned costs of $9,507, and related education awards
of $4,795. Cost questioned represent less than 1 percent of claimed costs. Most of the
questioned costs were related to unapproved budget category changes, unmet match for
living allowances, and hours recorded on timesheets that did not support eligibility for an
education award.

The report also includes four fmdings and related recommendations to improve compliance
with grant requirements and to improve internal controls. The Commission was mostly
responsive to the recommendations. The Corporation intends to address all fmdings and
recommendations in its management decision.

The OIG reviewed Cotton's report and related documentation and made necessary inquiries
of its representatives. Our review, as differentiated from an audit in accordance with
generally accepted govemment auditing standards, was not intended to enable us to express,
and we do not express, an opinion on the Consolidated Schedule of Award Costs, related
exhibits and schedules, or conclusions on the effectiveness of internal controls and
compliance with laws and regulations.

Cotton is responsible for this report, dated May 11, 2006, and the conclusions expressed
therein. However, our review disclosed no instances where Cotton did not comply, in all
material respects, with generally accepted govemment auditing standards.

This report is a matter of public record, and its' distribution is not limited.




                       1201 New York Avenue, NW* Suite 830, Washington, DC 20525
                         202-606-9390 Hotline: 800-452-8210 www.cncsig.gov         U   SA?$
                                                                                   Freedom Corps
                           Senior Corps   * AmeriCorps * Learn and Serve America   h k e o Differen-. Volunk.
                                 O m c OF
                                        ~ INSPECTORGENERAL
                        CORPORATIONFOR NATIONALAND COMMUNITY
                                                           SERVICE

                                         AUDITOF GRANTSAWARDEDTO
                                       ARIZONAGOVERNOR'SCOMMISSION
                                                                 ON
                                           SERVICE
                                                 AND VOLUNTEERISM

                                                           CONTENTS

Section                                                                                                                     Page
                                   .    .
Report Summary and Highlights ....................................................................................... 1
               .
Independent Auditors Report ............................................................................................
                               3
                                                                                                                              4

Exhibit A: Consolidated Schedule of Claimed and Questioned Costs ..............................                               6

Schedule A: Northern Arizona University.........................................................................              7

Schedule B: Arts For All, Inc. ..........................................................................................     9

Schedule C: Youth Count .................................................................................................    11

Schedule D: Volunteer Center of Southern Arizona..........................................................                   12

Independent Auditors' Report on Compliance and Internal Control ................................. 13

Appendices

A: Commission's Response to Audit Report
B: Corporation's Response to Audit Report
                             REPORT SUMMARY AND HIGHLIGHTS



  The Office of Inspector General (OIG), Corporation for National and Community Service
  (Corporation), contracted with Cotton & Company LLP (Cotton) to perform an audit of costs
  claimed by the Arizona Governor's Commission on Service and Volunteerism
  (Commission). Our audit covered financial transactions, compliance, and internal control
  testing of Commission awards.

  The Commission claimed $1,962,389 during the audit period. Of this amount we questioned
  $9,507 or about one half of one percent. Additionally, education awards of $4,795 were
  questioned. Most of the questioned costs were related to unapproved budget category
  changes, unmet match for living allowances and timesheet hours that did not support
  eligibility for education awards.



  The Corporation supports national and community service programs that provide full- and
  part-time opportunities for Americans to engage in service that fosters civic responsibility,
  strengthens communities, and provides educational opportunities for those who make a
  commitment to service. State commissions distribute funds to subgrantees that administer
  local programs and provide oversight, training, and technical assistance to subgrantees.

  The Commission, located in Phoenix, has received AmeriCorps grant funds fiom the
  Corporation since Program Year (PY) 1994-1995. It currently operates as part of the
  Governor's Office for Children, Youth, and Families, which provides fiscal management and
  matching funds for Corporation grants.

111. AUDITSCOPEAND RESULTS

  Cotton performed an incurred-cost audit including financial transactions, internal controls,
  and compliance for the following grants:

  Program                                        Award No.           Award Period            Audit Period
  Administrative                        04CAHAZ001 01/01/04-12/31/06                      01101104-12/31/05
  Professional Development and Training 02PDSAZ004 02/01/02-12131/04                      0 1/01104-12131/04
  Professional Development and Training 05PTHAZ00 1 01101105-12131107                     0 1101/05-12131105
  AmeriCorps State Competitive          03ACHAZ001 10101103-09130106                      10101/04-03131/061
  AmeriCorps State Formula              03AFHM001 10101103-09130106                       10101104-03131106~




  I
   The audit period was extended to 0313 1/06 to incorporate all grant activity for PY 2004-2005. We did not,
  however, audit costs claimed on the 0313 1/06 Financial Status Report (FSR) related to PY 2005-2006, and these
  costs are not included in Exhibit A.
The audit objectives were to determine if:

       .        The Commission's financial reports to the Corporation presented financial
                award results fairly, and costs were allowable in accordance with award terms
                and conditions;

       .        The Commission's internal controls were adequate to safeguard Federal
                funds; and

       .        The Commission had adequate procedures and controls to ensure compliance
                with Federal laws, applicable regulations, and award conditions.

We conducted fieldwork between February 13,2006 and May 11,2006.

Cost Findings

The Commission claimed $1,962,389 in costs during our audit period, as shown in Exhibit A,
Consolidated Schedule of Claimed and Questioned Costs. Of this amount, we questioned
$9,507 and related education awards of $4,795. Except for the questioned costs, the costs
claimed by the Commission appear fairly stated and allowable in accordance with award
terms and conditions.

Costs questioned primarily relate to member eligibility and compliance issues, such as proof
of citizenship or unallocable cost caused by a lack of documentation. We also identified
costs relating to claimed match that we questioned for the same reasons. These questioned
costs are not identified in the schedules because they did not result in unmet matching
requirements, which would have affected the allowability of the Federal costs.

Compliance and Internal Control Findings

We have also issued a report, titled Independent Auditors' Report on Compliance and
Internal Control, on our consideration of the Commission's internal control and compliance
with laws and regulations. In that report, we identified four issues of noncompliance
(Finding Nos. 1 through 4) that are required to be reported under generally accepted
government auditing standards. We also identified two noncompliance issues that affect the
Commission's internal control over financial reporting and its operation (Finding Nos. 1 and
2). We did not note any matters involving the internal control over financial reporting and its
operation that we consider to be material weaknesses. The findings are summarized below:

1.     The Commission had inadequate procedures to ensure that subgrantees documented
       member activities and that member support payments were proper.

2.     The Commission had inadequate subgrantee monitoring procedures.

3.     The Commission did not comply with all grant provisions.
4.     The Commission's financial management system was inadequate to account for and
       support all costs claimed.

IV. Exit Conference and Resolution

An exit conference with Commission and Corporation representatives was held on June 9,
2006. Commission and Corporation responses to this draft report are included as Appendices
A and B, respectively. In addition, we have included a brief summary of the Commission's
comments in the Independent Auditors' Report on Compliance and Internal Control.
May 11,2006

Office of Inspector General
Corporation for National and Community Service




We have audited costs claimed by the Arizona Governor's Commission on Service and
Volunteerism for PY 2004-2005, for the grants listed below. These costs are presented in
Exhibit A, Consolidated Schedule of Claimed and Questioned Costs, and are the
responsibility of Commission management. Our responsibility is to express an opinion on
these costs based on our audit.

Program                                        Award No.          Award Period             Audit Period
Administrative                                04CAHAZ001        01101104-12131106      01101104-12131105
Professional Development and Training         02PDSAZ004        02101102-12131104      01101104-12131104
Professional ~eveloimentand raining           05PTHAZ001        01101105-12131107      01101105-12131105
AmeriCorps State Competitive                  03ACHAZ001        10101103-09130106      10101104-03131/06'
AmeriCorps State Formula                      03AFHAZ001        10101103-09130106      10101104-03131/06'

Except as described below, we conducted our audit in accordance with audit standards
generally accepted in the United States of America and generally accepted government
auditing standards. These standards require that we plan and perform the audit to obtain
reasonable assurance about whether financial schedules are kee of material misstatement.
An audit includes examining, on a test basis, evidence supporting amounts and disclosures in
Exhibit A. An audit also includes assessing accounting principles used and significant
estimates made by management, as well as evaluating overall fmancial presentation. We
believe that our audit provides a reasonable basis for our opinion on incurred costs.

As noted above, our audit included examining transactions and member records on a test
basis. During our testing, we identified a number of questioned costs resulting ftom a
member eligibility issue. Codification of Statements on Auditing Standards, AU 5 326,
requires auditors to gain sufficient competent evidential matter to identify and properly value


I
  The audit period was extended to March 3 1,2006, to incorporate all grant activity for PY 2004-2005. We did
not, however, audit costs claimed on the March 3 1,2006, Financial Status Report (FSR) for PY 2005-2006, and
these costs are not included in Exhibit A.
all questioned costs. At the OIG's request, we did not expand testing of remaining members
to identify all questioned costs and related education awards.

Exhibit A is intended to present allowable costs incurred under the awards in accordance
with applicable Office o i ~ a n a ~ e m eand
                                          n t Budget (OMB) circulars and award terms and
conditions. Exhibit A is not intended to be a complete presentation of the Commission's
financial position, in conformity with,accounting principles generally accepted in the United
States of America. This exhibit also identifies questioned education awards. These awards
are not funded by Corporation grants and thus are not included as claimed costs. As part of
our audit, however, we determined the effect of all member compliance issues on these
awards.

In our opinion, except for questioned costs noted in Exhibit A and the effect on questioned
costs had we expanded testing as discussed above, the financial exhibit presents fairly, in all
material respects, costs claimed for the grants in conformity with applicable OMB circulars
and award terms and conditions.

In accordance with generally accepted government auditing standards, we have also issued a
report dated May 11,2006, on our consideration of the Commission's internal control and
compliance with laws and regulations. That report is an integral part of an audit performed
in accordance with generally accepted government auditing standards and should be read in
conjunction with this report in considering audit results.

This report is intended solely for the information and use of the Corporation, the OIG, the
Commission, and the U.S. Congress and is not intended to be and should not be used by
anyone other than these specified parties.


COTTON& COMPANY
              LLP



Sam Hadley, C P A ~
Partner
              ARIZONAGOVERNOR'SCOMMISSIONON SERVICEAND VOLUNTEERISM
                CONSOLIDATED
                          SCHEDULE OF CLAIMED AM) QUESTIONEDCOSTS
                         FOR NATIONAL
               CORPORATION           AND COMMUMTY   SERVICEAWARDS


                                         Federal Costs                    -
                                                                          Ouestioned
                                                                          Education
Award No.                    Awarded         Claimed       Questioned      Awards         Reference
04CAHAZOOl                                                                                  Note
02PDSAZOO4
05PTHAZ001
03AFHAZOO 1
  NAU                                                                         $2,363     Schedule A
  Arts For All                                                                 1,182     Schedule B
  Youth Count                                                                  1,250     Schedule C
  Others
                 Subtotal
03ACHAZ001
  Volunteer Center           $180,000                                                    Schedule D
  Other                       3 19.997
                 Subtotal    $499.997

Totals                      $2.405.258     $1.962.389         $9.507          $4.795


    Note
    A state motor pool vehicle was charged to the grant for 16 days, however it was only used for
    grant purposes for two days. The vehicle was requested for five days, but was returned after
    two days because it wasn't working. The grant, however, was charged for 16 days, which
    was the time the vehicle was under repair.

    OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
    Attachment A, Section C.1. Factors affecting allowabili@ of costs, states that a cost must be
    allocable to a Federal award to be allowable. The state agency responsible for the motor pool
    charged the Commission for the additional days while the vehicle was under repair. We
    questioned $384, which represents the portion of the charge during the repair period.
           ARIZONAGOVERNOR'SCOMMISSIONON SERVICEAND VOLUNTEERISM
                SCHEDULEOF CLAIMED
                                 AND QUESTIONEDCOSTSUNDER
            CORPORATIONFOR NATIONAL
                                  AND COMMUMTY   SERVICEAWARDS




                                                                    Amount           Notes
                Claimed Federal costs'                             $315.217

                Questioned Federal Costs:
                  Costs in excess of match limits
                  Member support budget used for
                    other costs categories
                Total Questioned Federal Costs

                Questioned Education Award:
                  Unsupported member service hours                    $2.363           3


1.      Northern Arizona University (NAU) claimed $2,536 of member living allowances
        and related kinge benefits in PY 2004-2005 that exceeded the allowable Federal
        share. According to AmeriCorps Provisions (2003 ed.), Section B. 11, Living
        Allowances, programs that provide a living allowance exceeding the minimum
        amount stated in application guidelines must provide a grantee match for all funds
        over 85 percent of that minimum. NAU could not explain why costs were claimed
        incorrectly, but provided a schedule for member living allowances that differed from
        the actual amount claimed on the Periodic Expense Report (PER). We questioned
        $2,536 of unmet match for member costs.




I
 S.\C corrcctcd an account in^ error on its \larch 31,2006. tSK, resulting in a dccreasc from $319268 to
$3 15.717 lhcrctore. SAC had $4,050 in tcderal iunds in excess ot'costs incurred in addition to questioned
costs identified in the footnotes.
2.   NAU used $2,962 budgeted for member support costs to fund personnel and other
     costs. AmeriCorps Provisions (2003 ed.), Section B.15.c.i., Budgetary Changes,
     states that the grantee must obtain the Corporation's prior written approval before
     reallocating budgeted costs from the member support category to other cost
     categories. NAU was aware that the budget amount could not be exceeded, but was
     unaware of the restriction on the member support budget. We questioned $2,962,
     representing the portion of unused member support costs budget used to fund other
     budget categories.

3.   NAU timesheets did not support member service hours reported in the Web-Based
     Reporting System (WBRS) for 1 of the 10 sampled members from PY 2004-2005.

     AmeriCorps Provisions (2003 ed.), Section C.22.c.ii., Financial Management
     Provisions, Time and Attendance Records, requires that grantees maintain time-and-
     attendance records on all AmeriCorps members to document their eligibility for in-
     service and post-service benefits. The member overstated hours by completing
     overlapping timesheets, and NAU did not verify timesheet accuracy. As a result, the
     member did not complete the necessary hours to receive an education award. We
     questioned the $2,363 in education award earned by the member.
       ARIZONAGOVERNOR'S
                       COMMISSIONON SERVICEAND VOLUNTEERISM
                   OF CLAIMED
            SCHEDULE        AM) QUESTIONEDCOSTSUNDER
                  FOR NATIONAL
        CORPORATION          AND COMMUMTY   SERVICEAWARDS




                                                                Amount        Notes
     Claimed Federal Costs                                     $111.295

     Questioned Federal Costs:
       Unallocable personnel benefits
        Unallowable program costs
        Under claimed member living allowance
        Missing member file
     Total Questioned Federal Costs


     Questioned Education Award:
        Unsupported member service hours


1.   Arts For All claimed unallocable personnel benefits. It calculated personnel benefit
     costs using the percentage of effort on the AmeriCorps program instead of the fringe
     benefit percentage. Our recalculation of fringe benefits using the actual fringe rate of
     17 percent resulted in a $6,618 decrease, of which $1,494 is Federal share.

     OMB Circular A-122, Cost Principlesfor Non-Profit Organizations, Attachment B,
     Paragraph 8.g., Compensationfor personal services, Fringe Benefits, states that
     fringe benefits are allowable, provided such benefits are granted in accordance with
     established written organization policies. Such benefits shall be distributed in a
     manner consistent with the pattern of benefits accruing to the individuals whose
     wages are chargeable to the awards and other activities.

2.   Arts For All claimed $940 for a holiday party and staff gifts. OMB Circular A-122,
     Cost Principles for Non-Profit Organizations, Cost Principles for Non-Profit
     Organizations, Attachment A, Paragraph A.3, Basic Considerations, Reasonable
     costs, states that costs must be ordinarv and necessarv for the verformance of the
     award. We questioned the Federal sh&e of claimed iosts for the holiday party of
     $658.
3.   Arts For All under-claimed $(1,041) of member living allowances in PY 2004-2005.
     Specifically under-claimed the living allowance for five members and over-claimed
     the living allowance for six members. Arts For All claimed member living allowance
     amounts based on a spreadsheet that tracked those costs. This spreadsheet, however,
     varied from actual payments made to the members as supported by the accounting
     system and Internal Revenue Sewice (IRS) W-2 statements. The $(1,041) represents
     a net increase of member living allowance expenses in excess of claimed costs.

4.   Arts For All could not locate one of the seven sampled member files from PY 2004-
     2005. Member files contain the member contract, timesbeets, and other
     documentation needed to support member eligibility, completion of required service
     hours, and compliance with other grant requirements.

     AmeriCorps Provisions (2003 ed.), Section 27, Retention ofRecords, states that the
     grantee must retain and make available all financial records, supporting
     documentation, statistical records, evaluation and program performance data, member
     information, and personnel records, for 3 years from the date of the submission of the
     fmal FSR. We questioned the member's living allowance and related fringe benefits
     of $1,963, because we could not determine eligibility or grant compliance to support
     these claimed costs.

5.   Arts For All used time-and-attendance information in the Web-Based Reporting
     System (WBRS) to track member status, which is also the basis for determining
     eligibility for education awards. Of the seven sampled members, timesheets for five
     members did not support hours reported in WBRS.

     AmeriCorps Provisions (2003 ed.), Section C.22.c.ii., Financial Management
     Provisions, Time and Attendance Records, requires that grantees maintain time-and-
     attendance records for all AmeriCorps members to document eligibility for in-service
     and post-service benefits. As a result of differences between WBRS and timesheet
     hours, one member did not meet the minimum number of service hours required to
     earn the education award. We questioned this education award of $1,182.
          ARIZONAGOVERNOR'SCOMMISSIONON SERVICEAND VOLUNTEERISM
               SCHEDULEOF CLAIMED
                                AM) QUESTIONEDCOSTSUNDER
           CORPORATIONFOR NATIONAL
                                 AND COMMUMTY   SERVICEAWARDS



                                                          Amount
              Claimed Federal Costs                       $129,708

              Questioned Education Award:
                  Unsupported member service hours         $1,250        Note


Note
Youth Count used time-and-attendance information in WBRS to track member status, which
is also the basis for determining eligibility for education awards. One member had 30 hours
entered twice in WBRS. The double entry occurred because the 30 hours were recorded for
the same period on two separate timesheets, which were approved by two staff members who
were on vacation for a week following each other.

AmeriCorps Provisions (2003 ed.), Section C.22.c.ii., Financial Management Provisions,
Time and Attendance Recorh, requires that grantees maintain time-and-attendance records
for all AmeriCorps members to document eligibility for in-service and post-service benefits.
As a result of the difference between WBRS and timesheet hours this member did not meet
the minimum number of service hours required to earn the education award. We questioned
this education award of $1,250.
          ARIZONAGOVERNOR'S
                          COMMISSIONON SERVICE
                                             AND VOLUNTEERISM
                      OF CLAIMED
               SCHEDULE        AM) QUESTIONEDCOSTSUNDER
                     FOR NATIONAL
           CORPORATION          AND COMMUMTY  SERVICEAWARDS




                                                          Amount
              Claimed Federal Costs                       $171,119

              Questioned Federal Costs:
                Unallowable healthcare for part-time
                    members                                     $551    Note


Note
Volunteer Center claimed healthcare coverage for two part-time members serving in full-
time capacity without the Corporation's prior approval. AmeriCorps Provisions (2003 ed.),
Section B.1 l.e.iv., Health Care Coverage, states that half-time members who are serving in a
full-time capacity for a sustained period of time (such as a full-time summer project) may be
eligible for health care benefits supported with Corporation funds, although that coverage
must be approved in the grant or by prior written approval from the Corporation's Office of
Grants Management.

Volunteer Center was unaware that providing healthcare coverage for part-time members
serving in full-time capacity required prior Corporation approval. We questioned health care
benefit costs of $551 for only one member because the other member's costs are ffom PY
2005-2006 and have not yet been claimed.
May 11,2006


Office of Inspector General
Corporation for National and Community Service




We have audited costs claimed by the Commission to the Corporation for National and
Community Service for the following awards and have issued our report thereon dated May
11,2006. We conducted our audit in accordance with auditing standards generally accepted
in the United States of America and generally accepted government auditing standards.

Program                                        Award No.          Award Period            Audit Period
Administrative                               04CAHAZ001         01101104-12131106      01101104-12131105
Professional Development and Training        02PDSAZ004         0210 1102-1213 1104    0 1101104-12131104
Professional Develovment and Training
AmeriCorps State &mpetitive
                                         -   05PTHAZ001
                                             03ACHAZ001
                                                                01101105-12131107
                                                                10101103-09130106
                                                                                       01101105-12131/05
                                                                                       10101104-03131/06'
AmeriCorps State Formula                     03AFHAZ001         10101103-09130106      10101104-03131/06'

COMPLIANCE
        WITH LAWSAND REGULATIONS

As part of obtaining reasonable assurance about whether the financial schedules are ftee of
material misstatements, we performed tests of compliance with certain provisions of laws,
regulations, and awards, noncompliance with which could have a direct and material effect
on determination of financial schedule amounts. Providing an overall opinion on compliance
with these provisions was not an objective of our audit and, accordingly, we do not express
such an opinion. Test results disclosed instances of noncompliance that are required to be
reported under generally accepted government auditing standards and are discussed below
(Finding Nos. 1 through 4).




I
 The audit period was extended to March 3 1,2006, to incorporate all grant activity for PY 2004-2005. We did
not, however, audit costs claimed on the March 3 1,2006,FSR for PY 2005-2006, and these costs are not
included in Exhibit A.
INTERNAL
       CONTROL
             OVER FINANCIAL
                          REPORTING

In planning and performing our audit, we obtained an understanding of the Commission's
internal control over financial reporting to determine audit procedures for the purpose of
expressing our opinion on the financial schedules and not to provide assurance on internal
control over financial reporting. We noted matters involving internal control over financial
reporting and its operation, however, that we consider reportable conditions. Reportable
conditions involve matters coming to our attention relating to significant deficiencies in the
design or operation of internal control over financial reporting that, in our judgment, could
adversely affect the Commission's ability to initiate, record, process, and report financial
data consistent with assertions of management in the financial schedules (Finding Nos. 1 and
2 below).

A material weakness is a condition in which the design or operation of one or more of the
internal control elements does not reduce, to a relatively low level, the risk that
misstatements in amounts that would be material in relation to the financial schedules being  -
audited may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Our consideration of internal control over
financial reporting would not necessarily disclose all matters in the internal control structure
that might be reportable conditions and that are also considered material weaknesses. We
noted no matters involving the internal control over financial reporting and its operation that
we consider to be material weaknesses.

We sampled four subgrantees and a total of 60 members. Our findings are discussed below.



1.     The Commission had inadequate procedures to ensure that subgrantees
       documented member activities and that member support payments were proper.

The Commission did not adequately ensure that subgrantees documented member activities
in accordance with AmeriCorps Provisions. Specifically:

       .       Mid-term or final evaluations were not available for all members sampled, and
               some evaluations either did not have member or supervisory signatures or
               were incomplete;

       .       Some exit forms were submitted late or were not signed;

       .       Hours reported for some members were not supported by member timesheets,
               and member timesheets were missing,
                                                - contained errors, or corrections were
               not initialed;

       .       Member living allowance payments were based on hours completed;
       .       Two subgrantees approved member change of status in WBRS more than 30
               days after the member changed status; and

       .       One member file was missing.

Evaluations

From our sample of four subgrantees, we identified instances where snbgrantees could not
provide documentation of evaluations, did not perform evaluations, or did not sign
evaluations:

       .       Two subgrantees could not provide documentation of mid-term or final
               evaluations for eight members.

       .       Two additional subgrantees did not perform mid-term evaluations. One
               performed a 30-day evaluation and an additional 90-day evaluation for some
               members, but did not perform mid-term evaluations. This subgrantee was
               unaware that mid-term evaluations were necessary. The second subgrantee
               did not perform mid-term evaluations due to the difficulty in traveling to
               various member service sites and a lack of time.

       .       Members or supervisors of one subgrantee discussed above did not sign mid-
               term and final evaluations because they did not think it was necessary.

Signed evaluations are needed to document that evaluations were conducted and received in
a timely manner. Evaluations are also necessary to ensure that members are eligible for
additional service terms. According to 45 C.F.R. 5 2522.220(d), Participant performance
review, a participant is not eligible for a second or additional term of service andor for an
AmeriCorps education award without mid-term and fmal evaluations. Subgrantees also are
required to conduct at least mid-term and final evaluations of each member's performance
and document that the member has:

       .       Completed the required number of hours;

       .       Satisfactorily completed assignments; and

       .       Met other performance criteria that were clearly communicated at the
               beginning of the service term.
Exit Forms

The Commission did not ensure that subgrantees submitted all required exit forms in a timely
manner and did not require members to sign the forms. Specifically:

       .       Seventeen exit forms were not entered into WBRS within the required 30

       .       days; and
               Six exit forms were unsigned by the members.

AmeriCorps Provisions (2003 ed.), Section 16.b., Reporting Requirements, AmeriCorps
Member Related Forms, requires that member enrollment forms be submitted to the
Corporation no later than 30 days after a member is enrolled, and that member exit forms and
final evaluations be submitted no later than 30 days after a member exits the program.

Member Service Hours

Member service hours recorded in WBRS were not always properly supported by member
timesheets. AmeriCorps Provisions (2003 ed.), Section C.22.c.ii., Financial Management
Provisions, Time and Attendance Records, requires that grantees keep time-and-attendance
records for all AmeriCorps members to document their eligibility for in-service and post-
service benefits. The Corporation uses time-and-attendance information in WBRS to track
member status, and this data is the basis for calculating education awards.

Member hours supported by timesheets varied from hours recorded in WBRS for 1I
members at three subgrantees:

       .       Timesheet hours exceeded WBRS hours (four members);

       .       Timesheet hours were less than hours reported in WBRS (seven members);
               and

       .       Member timesheets did not support the required number of hours to earn
               education awards (three members).

These subgrantees noted that hours recorded on member timesheets could vary from hours
reported in WBRS due to data-entry errors. Also, some member files were missing
timesheets. This resulted in $4,795 of questioned education awards (as shown in Schedules
A, B, and C).

Further, timesheets at three subgrantees contained corrections that were not initialed by the
member or supervisor and were not signed. Also, some timesheets were copies rather than
originals. When changes are made to timesheets without initials, accountability can be
compromised.
Member Living Allowance Payments

One subgrantee made living allowance payments based on hours of service in a given time
period. AmeriCorps Provisions (2003 ed.), Section B.ll, Living Allowances, in-Service
Benefits, and Taxes, states that living allowances are designed to help members meet
necessary living expenses incurred while participating in the program. Programs are not
allowed to pay members on an hourly basis, and allowances must not be based on the number
of hours a member serves.

Change of Status

Two subgrantees reported member change of status late in WBRS for members whose status
changed during the program. AmeriCorps Provisions (2003 ed.), Section B.16.b.ii, Change
of Status Forms, states that member change of status forms must be submitted no later than
30 days after a member's status is changed. Change of status forms were submitted more
than 30 days after member status changed in three instances.

Recommendation: We recommend that the Corporation ensure that the Commission
strengthens its program monitoring procedures to comply with grant requirements regarding
member activities, including:

       .       Complying with grant requirements for conducting member evaluations and
               retaining documentation;

       .       Documenting member exit promptly and submitting this information to the
               Corporation on a timely basis;

       .       Recording member service hours accurately and in accordance with program
               provisions and ensuring that only eligible service hours are counted toward
               the member service requirement and education awards;

       .       Ensuring that subgrantees calculate and pay living allowances in accordance
               with program provisions; and

       .       Documenting member change of status promptly and submitting this
               information to the Corporation on a timely basis.

We also recommend that the Corporation work with the Commission in audit resolution to
calculate any questioned living allowances, related fringe benefits and applied administrative
costs for those members who were paid an hourly wage and accelerated their service terms at
Northern Arizona University.
Commission Response: The Commission will institute desk-based monitoring methods for
mid-term and final evaluations of members, timeliness of exit form submission, living
allowance calculations, change of status form submission, member service hours supported
by member timesheets, and document retention. The Commission will continue to stress
these areas at program director trainings and will use the New Program Start-up Guide to
train new, existing, and continuing programs in these areas. The Commission also will begin
testing all files during site visits.

Auditors' Comments: We believe the actions taken by the Commission effectively address
the recommendations.

2.     The Commission had inadequate subgrantee monitoring procedures.

The Commission performed routine site visits of subgrantees and reviewed subgrantee
documentation. It did not, however, always perform adequate reviews of procedures to
ensure that subgrantees claimed only allowable costs and had adequate financial management
systems.

Allowable Costs

The notes to Schedules A through D describe questioned Federal costs of $9,507 and related
education awards of $4,795. This includes costs claimed by subgrantees for which
documentation indicates that costs were expended in violation of laws, regulations, and
specific conditions of awards, costs that require interpretation of allowability by the
Corporation, or unsupported costs claimed that require additional documentation to support
allowability. Some allowability issues identified during our sampling of claimed costs
include:

       .      One subgrantee claimed costs in excess of 85 percent of member living
              allowances as Federal expenditures;

       .      One subgrantee claimed in-kind match for items contributed by the same legal
              entity, and valued those donations at market value instead of actual costs;

       .      One subgrantee claimed unallowable costs for a holiday party and staff gifts;
              and

       .      One subgrantee used costs budgeted for Participant Support to fund personnel
              and other expenses.

Financial Management Systems

The Commission did not ensure that each subgrantee had an adequate financial management
system. In addition to unallowable and unsupported costs claimed by subgrantees, we noted
that subgrantees did not have adequate labor distribution systems and other financial
management weaknesses as follows:
Labor Distribution systems

       .      One subgrantee did not have an adequate labor distribution system to support
              claimed staff labor costs. Labor costs were charged to the grant based on
              predetermined percentages and were not supported with after-the-fact labor
              distribution records, as required by applicable OMB cost circulars.

       .      One individual at one subgrantee prepared time accountability sheets during a
              staff meeting that were not signed by employees and supervisors. Also,
              periods reported on timesheets differed from pay periods.

       .      One subgrantee did not have adequate internal control procedures for financial
              reporting. It used budget estimates of employee effort to calculate claimed
              staff labor costs.

       .      One subgrantee used pre-prepared labor distribution certifications to support
              labor allocations between overlapping AmeriCorps grants. Employees signed
              these certifications without clarification or correction. Also, certifications for
              the business manager identified time spent on general business; this time was
              later allocated to the AmeriCorps grant through journal entries.

Alternative procedures were performed to ensure that claimed labor costs were not
overstated. We interviewed personnel to verify labor cost were reasonable and allowable.
Labor costs are not questioned as a result of these alternative procedures.

Other financial management issues:

       .      One subgrantee did not file one financial and two progress reports in a timely
              manner.

       .      One subgrantee used credit card receipts as supporting documentation for
              purchases and did not provide invoices to indicate what was purchased.

       .      One subgrantee did not have adequate internal control procedures for financial
              reporting. It used budget estimates for office supplies and administrative costs
              based on annual estimates.

       .      One subgrantee used living allowance estimates to calculate claimed costs on
              its periodic expense report, instead of actual payments made to members.

       .      Two subgrantees maintained inadequate support for in-kind donations.
              Documentation is required to show that contributions were not obtained or
              supported by Federal funds, labor was recorded using actual pay rates and
              hours from timesheet records, office space was valued at fair value, and
              estimates versus actual expenses were used for office supplies.
       .       One subgrantee's accounting system did not identify costs by budget line item
               and distinguish expenditures from different programs (cost centers). The
               expenditures attributable to the AmeriCorps grant were tracked in a separate
               spreadsheet, and there is no assurance that the costs were not claimed on other
               programs.

       .       One subgrantee over-claimed member living allowances and did not reconcile
               claimed match costs to the accounting system and correct the error.

OMB Circular A-1 10, Subpart C.21, Standards for Financial Management, requires
accurate, current, and complete disclosure of the financial results of each Federally-
sponsored project in accordance with the reporting requirements.

Recommendation: We recommend that the Corporation:

       .       Ensure that the Commission strengthen subgrantee monitoring procedures to
               include more detailed reviews of allowable costs and documentation;

       .       Ensure that the Commission require subgrantees to have adequate financial
               management systems; and

       .       Calculate and recover from the Commission disallowed costs and any related
               administrative costs.

Commission Response: The Commission will strengthen its subgrantee monitoring
                                                                    - the reimbursement
procedures to include more detailed reviews of allowable costs through
process. The Commission will document verification that budgets have not been exceeded in
total. The Commission also will document that line items within budgets have not been
exceeded without prior notification andlor approval. The Commission also will document
reviews of expenditure summaries (ledger) to spot unallowable costs per OMB circulars.

The Commission will ensure that only expenses that have original supporting documentation
and are after-the-fact will be reimbursed. The Commission will pay strict attention to any
jonrnal entries concerning labor distribution and will question any that are not easily
verifiable; verifying that all expenditures are tracked by budget line item and that different
cost centers are used for all different programs. In addition, the Commission will verify that
expenditures are accounted for and that all expenses are only claimed once; and to ensure
that only allowable and allocable costs are charged to the grant. The Commission also has
instituted desk-based monitoring methods to ensure program staff accountability sheets are
signed by the employees and supervisors and that accountability sheets are verified for the
proper pay period. The Commission will contact subgrantees as necessary to clarify any
issues or errors identified, adjust reimbursements, and hold reimbursements until sufficient
information is provided or the subgrantee has submitted a revised form.

The Commission will strengthen its financial management systems monitoring through
trainings, site visits, and periodic desk reviews of expenses to ensure that labor charges are
charged only after-the-fact. The Commission will issue reminder notices one week prior to
reporting deadlines in addition to providing all programs with a schedule of required
financial and progress reports. The Commission will remind subgrantees that original
documentation is required for any and all purchases. If original documentation cannot be
obtained, the said cost will be determined unallowable by the Commission.

Auditors' Comments: We believe the actions taken by the Commission will effectively
address most of the recommendations. We continue to recommend the Corporation, through
the resolution process, resolve the questioned cost and any related administrative costs.

3.     The Commission did not comply with all grant provisions.

The Commission did not ensure that subgrantees had adequate documentation for member
citizenship, criminal background checks, and other grant requirements.

Citizenship

The Commission did not ensure that subgrantees obtained adequate proof of member
citizenship. Two subgrantees could not support U.S. citizenship for four members. 45 CFR
5 2522.200, What are the eligibiliq requirementsfor an AmeriCorpsparticipant?, requires
every AmeriCorps participant to be a citizen, national, or lawful permanent resident alien of
the United States. Both subgrantees noted that they did not follow their procedures to obtain
proof of citizenship for these members.

One subgrantee subsequently provided citizenship documentation for one of its members; we
did not question costs related to that member. There were no claimed living allowances for
the remaining three members because one member did not actively participate in the
program, and the other two were members from PY 05-06 and living allowances for those
members had not been claimed yet.

Criminal Background Checks

Three subgrantees could not provide documentation to show that criminal record checks were
completed or reviewed. Specifically:

               One subgrantee did not obtain criminal record checks for five members at
               mentoring sites serving children. The subgrantee requested copies of the
               missing criminal record checks from the mentoring sites, but they were not
               provided.

               One subgrantee did not have documentation on file to show that criminal
               record checks were performed for three members. Subsequent to our site
               visit, the subgrantee provided the criminal record check documentation for
               two of the three members.

               One subgrantee failed to obtain a criminal record check for one member.

AmeriCorps Provision (2003 ed.) Section B.6.h, Criminal Record Checks, requires programs
to conduct criminal record checks on members or employees who have substantial direct
contact with children as part of the screening process and maintain documentation consistent
with state law. Because the Commission did not identify a relevant state law that it follows
for obtaining criminal record checks, we tested against each subgrantee policy. To comply
with AmeriCorps Provisions, however, it is reasonable to expect each subgrantee to maintain
documentation for considering or initiating criminal record checks as part of the screening
process.

Other Grant Compliance

Some subgrantees did not comply with, or adequately document, compliance with grant
provisions on member contracts, health care requirements, and miscellaneous grant
requirements. Specifically:

       .      The member contract of one subgrantee did not clearly document the Dmg-
              Free Workplace Act. AmeriCorps Provision (2003 ed.), Section B.7.b.iv,
              Member Contracts, states that grantees must require members to sign
              contracts that, at a minimum, stipulate requirements under the Drug-Free
              Workplace Act.

       .      One subgrantee provided and claimed costs for health insurance for part-time
              members. AmeriCorps Provisions (2003 ed.), Section B. 11.e, Health Care
              Coverage, states that half-time members who are serving in a full-time
              capacity for a sustained period of time may be eligible for health care benefits
              supported with Corporation funds, although that coverage must be approved
              in the grant. The subgrantee stated that the members were working in a full-
              time capacity, which entitled them to healthcare coverage, and that it was
              unaware of the requirement for Corporation approval. We questioned $55 1 of
              health insurance costs claimed for one part-time member during the audit
              period.

       .      Two subgrantees did not have policies to require retention of supporting
              documentation for the minimum amount of time required by grant provisions.
              AmeriCorps Provisions (2003 ed.), Section C.27, Retention of Records,
              requires that grantees retain all program and financial records for three years
              from the date of submission of the final FSR.

       .      One subgrantee implemented additional performance criteria in order for
              members to receive full or partial education awards. For those members that
              successfully completed the AmeriCorps requirements, but didn't meet
              subgrantee's additional requirements, the subgrantee terminated the member
              stating compelling personal circumstances as the reason for termination (vs
              program completion) and was therefore able to award members a partial
              education award.
Recommendation: We recommend that the Corporation ensure that the Commission:

               Require subgrantees to maintain adequate documentation to verify citizenship
               for all members;

       .       Require suhgrantees to revise policies and procedures to require that
               supporting criminal records check documentation be maintained as evidence
               that checks were considered or initiated during the screening process;

       .       Require suhgrantees to include all required elements in its member contracts
               and ensure that each subgrantee maintains a contract for each member;

       .       Strengthen controls to obtain approval from the Corporation for health care
               provided to part-time members or ensure that costs are not claimed;

       .       Require that subgrantees develop record-retention policies that comply with
               grant provisions; and

       .       Require subgrantees to use compelling personal circumstance criteria for its
               intended purpose when determining education award eligibility, regardless of
               subgrantee-specific member performance requirements.

We also recommend that the Corporation work with the Commission to resolve the
questioned costs, including administrative costs. Finally, we recommend that the
Corporation ensure the Commission verify citizenship for the two current-year members and
determine the allowability of health care costs for the part-time member.

Commission Response: The Commission will institute desk-based monitoring methods for
ensuring programs have proper documentation to verify member citizenship, programs are
clearly stipulating the requirements under the Drug-Free Workplace Act, all required
elements are in its member contracts, programs clearly understand the requirements of
program and financial record retention, programs clearly understand the criteria for releasing
a participant for compelling personal circumstances and its intended purpose when
determining education award eligibility, and WBRS hours coincide with timesheet hours.
The Commission will continue to stress these areas at program director trainings and will use
the New Program Start-up Guide to train new, existing, and continuing programs. The
Commission also will test all files during site visits.

The Commission plans to formulate a local fingerprintlbackground policy for National
Service programs. The Commission is requiring all programs to maintain a copy of
fingerprintibackground check information as evidence that checks were considered or
initiated during the screening process. The Commission is also requiring all programs to
review and report to the Commission on their procedures, and will provide ongoing training
on this subject to subgrantees.

The Commission disagrees with the finding that health care coverage for part time memhers
must be approved in the grant and prior written approval must he received from the
Corporation. The Commission stated that the subgrantee did indicate in its original grant
application that the 900-hour members would be serving in a full-time capacity over a six-
month period. However, the subgrantee did not include the health insurance costs for the
900-hour members in its budget narrative and only included the health insurance costs for the
full-time members.

Auditors' Comments: Except for health insurance for part-time members, we believe the
actions taken by the Commission effectively address the recommendations.

4.     The Commission's financial management system was inadequate to account for
       and support all costs claimed.

The Commission did not have an adequate financial management system to support all
claimed costs and ensure that claimed costs met grant requirements. Specifically, the
Commission:

       .      Had an inconsistent allocation methodology for purchasing office supplies;

       .      Had an inadequate labor distribution system;

       .      Did not reconcile aggregate Financial Status Reports (FSRs) to the
              Commission's accounting system to ensure that it represented actual amounts
              paid to subgrantees;

       .      Did not adequately represent grant award amounts or the proper grantee on the
              OMB Circular A-133 Schedule of Expenditures of Federal Awards; and

       .      Did not submit all FSRs in a timely manner.

Allocation Methodology for Materials

The Commission used an inconsistent allocation methodology for purchasing supplies.
Certain charges were judgmentally expensed to programs.

OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments
Attachment C, Paragraph A.1. General, requires that central service costs he identified and
assigned to benefited activities on a reasonable and consistent basis. The Commission staff
judgmentally allocated charges for office supplies to its programs without a consistent
methodology. The Governor's Office plans to use an Indirect Cost Rate Agreement with the
U.S. Department of Justice to recover these common costs in the future.
Labor Distribution System

The Commission did not have documented support for the labor costs of staff who spent a
portion of their time on AmeriCorps activities. The three categories of labor costs charged
were based on predetermined, estimated effort percentages, as follows:

       .       The allocation of labor for Commission staff who charged all of their time to
               grants (direct charges) was predetermined and charged to the grants based on
               estimated percentages.

       .       Support staff (Governor's Office staff who worked directly on the grants)
               labor was allocated using a predetermined percentage of time and charged to
               the Administrative grant.

       .       Indirect staff (Governor's Office staff who benefit, but do not spend a
               considerable amount of time on the grant) labor was allocated using a
               predetermined percentage of time and charged to the Administrative grant.

OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments
Attachment B, Paragraph 8(h), Support of salaries and wages, requires salary distributions to
be based on after-the-fact personnel activity reports. These reports are to be signed by each
employee and must account for all time worked.

The Commission staff and the Governor's Office support staff maintained online timesheets,
but these timesheets were not used to allocate labor. The indirect staff did not maintain time
records. In the future, the Governor's Office plans to use an Indirect Cost Rate Agreement
with the U.S. Department of Justice to recover these indirect staff costs.

Financial Reporting of Grant Expenditures

The Commission did not ensure that expenditure amounts reported on the semi-annual FSRs
represented actual Commission expenditures. The Commission created an aggregate FSR,
which was the accumulation of all subgrantee FSRs. This aggregate FSR was not reconciled
to the Commission accounting system to ensure that it represented actual amounts paid to
subgrantees.

OMB Circular A-1 10, Uniform Administrative Requirementsfor Grants and Agreements
With Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations,
Subpart C.21, Standardsfor Financial Management, requires accurate, current, and complete
disclosure of the financial results of each Federally-sponsored project in accordance with the
reporting requirements. The Commission did not ensure that amounts reported on this
aggregate FSR were accurate by reconciling them to the Commission accounting system or
Grants Management System.
Inadequate OMB Circular A-133 Reporting

Amounts reported in the statewide OMB Circular A-133 audit report did not adequately
represent grant award amounts or the proper grantee. The Schedule of Expenditures of
Federal Awards is prepared from statewide expenditure reports that identify the state agency
where funds were expended. The Schedule does not identify when those expenditures are
incurred as a subgrant of the Commission or a direct grant from the Corporation. The
Corporation can not identify individual grants made to the Commission, reconcile those
expenditures to amounts reported by the Commission by grant, or identify the result of the A-
133 audit for those grants.

The Federal government's grants management common rule for state and local governments,
45 CFR 2541.400(a), Monitoring by grantees, states that Grantees must monitor grant and
subgrant supported activities to ensure compliance with applicable Federal requirements and
that performance goals are being achieved. The Commission staff did not complete a
reconciliation of OMB Circular A-133 reports to payments made by the Commission,
because it was unaware of the requirement.

Recommendation: We recommend that the Corporation ensure that the Commission:

       .       Improve and document the allocation methodology used to expense charges
               on office supplies to the grant to consistently reflect items purchased,
               allocated, and used to directly benefit the grant;

       .       Revise its labor distribution system to adequately support all claimed labor
               costs in accordance with applicable OMB circulars;

       .       Incorporate procedures to reconcile the aggregate FSR to accounting records
               and the Grants Management System and adjust the aggregate FSR prior to
               submitting this financial report to the Corporation; and

       .       Reconcile the Schedule of Expenditures of Federal Awards to the
               Commission's accounting records.

Commission Response: The Governor's Office for Children, Youth and Families (GOCYF)
agrees to develop an allocation plan for any costs specific to the Division for Community and
Youth Development (the division in which the Commission is housed). Once the GOCYF
indirect cost plan is functional, the central costs will be charged to those indirect costs
recovered.

The Commission does not agree with the labor distribution system part of this finding. The
Commission believes that allocating support and indirect staff based upon time spent by
direct charge staff complies with the OMB requirement that central costs be identified and
assigned to benefited activities on a reasonable and consistent basis. The response also noted
that OMB requirements do permit costs to be allocated using estimates.
The Commission is not responsible for preparing the State of Arizona's OMB Circular A-133
Schedule of Expenditures of Federal Awards (SEFA). The Commission is housed within the
GOCYF and therefore included as part of the State of Arizona's A-133 Audit, which is
prepared by the State of Arizona Auditor General's Office. The Commission will however,
begin to identify and reconcile all Corporation funds awarded on the SEFA and retain the
documentation in the appropriate grant files.

Auditors' Comments: Except for the labor distribution system, we believe the actions taken
by the Commission effectively address the recommendations.

This report is intended for the information and use of the OIG, Commission, and U.S.
Congress and is not intended to be and should not be used by anyone other than these
specified parties.


COTTON& COMPANY
              LLP




Partner
                  .
                                                STATEOF ARIZONA
JANET NAPOLITANO              GOVERNOR'S
                                     OFFICE FOR CHILDREN,            YOUTH A N D FAMILIES   IRENES JACOBS
    GOVERNOR                                                                                   DIRECTOR




August 30,2006

Carol Bates
Assistant Inspector General for Audit
Corporation for National and Community Service
1201 New York Avenue, NW, Suite 830
Washington, DC 20525

Re: OIG Audit Report 06-37

Dear Ms. Bates:

Thank you for the opportunity to comment on the report summarizing the incurred-cost audit of grants
awarded to the Arizona Governor's Commission on Service and Volunteerism (Commission). As you
are aware, the Arizona Commission has worked cooperatively with the Corporation for National and
Community Service (CNCS) auditors over the last several months of fieldwork and has continuously
demonstrated responsiveness to requests for information and feedback. We would like to express our
appreciation to Cotton and Company for the highly professional manner in which the auditors managed
the audit.

The Commission will continue to work in cooperation with the CNCS Audit Resolution Specialist over
the coming months to resolve any outstanding issues we have with the audit findings.

Included below are the Commission's responses to each of the audit fmdings. The findings are grouped
under the Compliance Finding heading identified in the Auditor's Opinion. Our responses to specific
questioned costs for the Commission as well as the four sub grantees that were audited are included in
Attachments A - E for the corresponding audit report.

Compliance Finding #I: The Commission had inadequate procedures to ensure that sub grantees
documented member activities and that member support payments were proper.

Bullet I: The Commission has always maintained a strict policy on mid-term and fmal evaluations for
its participants and has emphasized this in orientation training of new programs and continually in
program director training. The Commission will continue to stress mid-term and final evaluations for
members at program director training and will use the New Program Start-up Guide developed by the
Office of Leadership, Development and Training to train new, existing and continuing programs. The

                                  1700 WEST WASHINGTON. SUITE 101.PHOENIX. AZ 85007
                                              MAIN PHONE. 602-542-4043
                                               FACSlMlLlE 602-54M520
                                             WW GOVERNO&STAiE.AZ.U$
Commission has instituted desk-based monitoring methods to ensure programs are retaining
documentation to verify they are complying with grant requirements for conducting evaluations.

Bullet 2: The Commission has alwavs maintained a strict volicv on the submittal of reauired exit forms
for its members and has emphasized this in orientation training of new programs and continually in
program director training. The Commission will continue to stress the timeliness of exit form
h&ssion at program director training and will use the New Program Start-up Guide developed by the
Office of Leadership, Development and Training to train new, existing and continuing programs. The
Commission has instituted desk-based monitoring methods to ensure programs exit members promptly
and submit this information in a timely manner.

Bullet 3: The Commission has always maintained a strict policy on the proper documentation of
member service hours and has emphasized this in orientation training of new programs and continually
in program director training. The Commission will continue to stress the importance of member service
hours being supported by member timesheets at program director training and will use the New
Program Start-up Guide developed by the Office of Leadership, Development and Training to train
new, existing and continuing programs. The Commission has instituted desk-based monitoring methods
to ensure programs have proper documentation to verify member service hour and are properly
supported by timesheets. The Commission will test member files during its site visits. The
Commission will review each sub grantee's method of checks and balances to ensure recording of
member service hours are accurate and in accordance with program provisions and ensure only eligible
service hours are counted toward the member service requirement and education awards.

Bullet 4: The Commission has always maintained a strict policy on the member living allowance and
its proper distribution and has emphasized this in orientation training of new programs and continually
in program director training. The Commission will continue to stress the importance of proper
distribution of member living allowances at program director training and will use the New Program
Start-up Guide developed by the Office of Leadership, Development and Training to train new, existing
and continuing programs. The Commission has instituted desk-based monitoring methods to ensure
programs are calculating and distributing living allowances in accordance with program provisions.

Bullet 5: The Commission has always maintained a strict policy on the submittal of required change of
status forms for its participants and has emphasized this in orientation training of new programs and
continually in program director training. The Commission will continue to stress the timeliness of
change of status form submission at program director training and will use the New Program Start-up
Guide developed by the Office of Leadership, Development and Training to train new, existing and
continuing programs. The Commission has instituted desk-based monitoring methods to ensure
programs ensure programs submit this information in a timely manner.

Bullet 6. The Commission has always maintained a strict policy on the retention of supporting program
and fmancial records for three years and has emphasized this in orientation training of new programs
and continually in program director training. The Commission will continue to stress retention of
documents at program director training and will use the New Program Start-up Guide developed by the
Office of Leadership, Development and Training to train new, existing and continuing programs. The
Commission has instituted desk-based monitoring methods to ensure programs clearly understand the

                                  1700 WEST WASHINGTONSUITE 101.PHOENIX. AZ 85007
                                             MAIN PHONE. 602.542-4043
                                              FAtSlMlLlE @2-54W520
                                           WWW.wvE-
requirements of program and financial record retention. The Commission will review 100% of member
files during sub grantee site visits.

Compliance Finding #2: The Commission had inadequate sub grantee monitoring procedures.

Allowable Costs

Bullets I - 4: The Commission will strengthen its sub grantee monitoring procedures to include a more
detailed review of allowable costs through the reimbursement process.
            The Commission will document verification that budgets have not exceeded in total and that
            line items within budgets have not been exceeded without prior notification and/or approval.
            The Commission will document review of expenditure summary (ledger) to spot
            unallowable costs per OMB circular and contact the sub grantee as necessary to clarify any
            issues identified.
            The Commission will correct any obvious errors and the reimbursement will be adjusted
            accordingly. When this occurs the sub grantee will be required to submit a corrected
            reimbursement request form.
            In the event of missing and/or unallowable information or clarification is needed, the
            Commission will contact the sub grantee. The reimbursement will be held until sufficient
            information is provided or the sub grantee has submitted a revised reimbursement form.

Financial Management Systems

                                                                  -
Bullet I: The Commission has a strict ~ o l i c von followine OMB cost ~ r i n c i ~ l e The
                                                                                         s . Commission will
strengthen its monitoring to ensure that labor charges are charged only after-the-fact. This will be
accomplished through trainings, during site visits, and through periodic desk reviews in which all
suppo&ng documentation foFexpensei will be required for Eertain reporting periods kom sub grantees.

Bullet 2 - The Commission has always maintained a strict policy on the timely submittal of required
financial and progress reports and has emphasized this in orientation training of new programs and
continually in program director training. In addition, a reporting schedule for both required financial
and progress reports is provided to all programs at the beginning of a program year. The Commission
will begin to issue reminder notices one week prior to reporting deadlines.

Bullet 3: The Commission performs site visits and has a strict policy on obtaining the original receipts,
purchase orders, and any and all other original documentation to support expenses. The Commission
will strengthen its policies, perform more desktop reviews and remind sub grantees that original
documentation is required for any and all purchases. If original documentation cannot be obtained, the
said cost will be determined unallowable by the Commission.

Bullet 4: The Commission conducts business on a reimbursement basis. Only those expenses, which
have been paid by the sub grantee, will be reimbursed. The Commission also follows OMB guidelines
and only reimburses for actual expenses. Monitoring will be strengthened to ensure that only expenses
that have original supporting documentation and are after-the-fact will be reimbursed.


                                    1700 WEST WASHINGTONSUITE 101.PHOENIX. AZ 85007
                                               MAIN PHONE. 602.542-4043
                                                FAtSlMlLlE @2-54W520
                                             WWW.wvE-
Bullet 5 - The Commission has always maintained a strict policy on the requirements of sub grantee
staff time accountability sheets and has emphasized this in orientation training of new programs and
continually in program director training. The Commission has instituted desk-based monitoring
methods to ensure program staff accountability sheets are signed by the employees and supervisors and
that accountability sheets are verified for the proper pay period.

Bullet 6: The Commission conducts business on a reimbursement basis. Only those expenses, which
have been paid by the sub grantee, will be reimbursed, including member living allowance. The
Commission also follows OMB guidelines and only reimburses for actual expenses. Monitoring will be
strengthened to ensure that only member living allowances that have original supporting documentation
(i.e. time sheets), are after-the-fact, and are actual payments will be reimbursed.

Bullet 7: The Commission views all expenses, whether charged to the grant or matching (in-kind or
cash) funds in the same manner. In-kind contributions will be monitored more strictly during site visits
and through periodic desk reviews in which all supporting documentation for all expenses whether
charged to grant or entered as match will be required and reviewed.

Bullet 8: The Commission is committed to and has a strict policy of reimbursing only allowable
expenditures that are after-the-fact, that are reasonable, allocable, and allowable. The Commission will
strengthen monitoring of sub grantees by verifying labor distribution costs and certifications and direct
the sub grantees to make any and all corrections prior to payment. Also, the Commission will pay strict
attention to any journal entries concerning labor distribution and will question any that are not easily
verifiable.

Bullet 9: The Commission has a strict policy on following OMB guidelines as well as all CNCS
guidelines. All costs should be identifiable by budget line item and cost centers and should be posted in
the same manner as all other expenditures. The Commission will strengthen its policy on verifying that
all expenditures are tracked by budget line item and that different cost centers are used for all different
programs. In addition, the Commission will verify that expenditures are accounted for and that all
expenses are only claimed once.

Bullet 10: The Commission will strengthen training on allowable costs as well as improve its
monitoring on an ongoing basis to ensure that only allowable and allocable costs are charged to the
grant.

Compliance Finding #3: The Commission did not comply with all grant provisions.

Citizenship

The Commission has always maintained a strict policy on citizenship documentation and has
emphasized this in orientation training of new programs and continually in program director training.
The Commission will continue to stress U.S. citizenship documentation at program director training and
will use the New Program Start-up Guide developed by the Office of Leadership, Development and
Training to train new, existing and continuing programs. The Commission has instituted desk-based
monitoring methods to ensure programs have proper documentation to verify citizenship for all
                                    1700 WEST WASHINGTON SUITE 101 PHOENIX AZ 85007
                                               MAIN PHONE 602-542-4043
                                                FAtSlMlLlE &02-54W520
                                             WWW.wvE-
members. The Commission will now test 100% of member files during sub grantee site visits. The
Commission will review each sub grantee's method of checks and balances to ensure timesheets and
WBRS coincide.

Criminal Background Checks

The Commission is reviewing all available information regarding fingerprinting for required
populations on the state, local and tribal levels. The Commission plans to formulate a local
fingerprinthackground policy for National Service programs. The Commission is requiring all
programs to review and report to the Commission on theirprocedures, and will provide ongoing
training on this subject to sub grantees. The Commission is requiring all programs to maintain a copy
of fingerprinthackground check information as evidence that checks were considered or initiated during
the screening process.

Other Grant Compliance

Bullet I : The Commission has always maintained a strict policy on documentation of the Drug-Free
Workplace Act in member contracts and has emphasized this in orientation training of new programs
and continually in program director training. The Commission will continue to stress this
documentation at program director training and will use the New Program Start-up Guide developed by
the Office of Leadership, Development and Training to train new, existing and continuing programs.
The Commission has instituted desk-based monitoring methods to ensure programs are clearly
stipulating the requirements under the Dmg-Free Workplace Act and to ensure all required elements are
in its member contracts. The Commission will now test 100% of member contracts for required
elements during sub grantee site visits.

Bullet 2: The Commission disagrees with auditor's interpretation of the AmeriCorps provisions.
Amencorps Provisions (2005 ed.), Section IV.1.4.d,Health Care Coverage, states that "...although that
coverage must be approved in the grant or via prior written approval from Corporation Office of Grant
Management. The Commission requires that coverage be approved in the grant and receive prior
written approval from the Corporation. In this case, the sub grantee did indicate in its original grant
application that the 900-hour members would be serving in a full time capacity over a 6-month period.

Bullet 3. The Commission has always maintained a strict policy on the retention of supporting program
and fmancial records for three years and has emphasized this in orientation training of new programs
and continually in program director training. The Commission will continue to stress retention of
documents at program director training and will use the New Program Start-up Guide developed by the
Office of Leadership, Development and Training to train new, existing and continuing programs.
The Commission has instituted desk-based monitoring methods to ensure programs clearly understand
the requirements of program and financial record retention. The Commission is requiring all programs
to review and report to the Commission on their record-retention policy.

Bullet 4: The Commission has always maintained a strict policy- regarding
                                                                   - - in which circumstances a
program may release a participant from completing a term of service for compelling personal
circumstances and has emphasized this in orientation training of new programs and continually in
                                   1700 WEST WASHINGTON SUITE 101 PHOENIX AZ 85007
                                              MAIN PHONE 602-542-4043
                                               FAtSlMlLlE &02-54W520
                                            WWW.wvE-
program director training. The Commission will continue to stress criteria for compelling personal
circumstances at program director training and will use the New Program Start-up Guide developed by
the Office of Leadership, Development and Training to train new, existing and continuing programs.

The Commission has instituted desk-based monitoring methods to ensure programs clearly understand
the criteria for releasing a participant for compelling personal circumstances and its intended purpose
when determining education award eligibility.

Compliance Find #4: The Commission's financial management system was inadequate to account
for and support all costs claimed.

Bullet I : The Governor's Office for Children, Youth and Families (GOCYF) agrees to develop an
allocation plan for any costs specific to the Division for Community and Youth Development (the
division in which the Commission is housed). This allocation vlan will be based uvon the number of
FTEs that each grant within the division employs. For central costs throughout th; GOCYF until the
GOCYF indirect cost plan is fully functional, there will be an allocation plan based upon the number of
FTEs that each grant &nploys within the office. Once the GOCYF indirect cost            functional, the
central costs will be charged to those indirect costs recovered.

Bullet 2. The Commission does not agree with portions of this finding. The GOCYF Time and Effort
system is an on-line system that tracks all time for employees who work directly on federal grants.
Based upon the percentage of time entered by direct charge employees, the charges for support staff are
pro-rated across all grants within their division, and the charges for the indirect staff are pro-rated
across all divisions. On February 16,2006, audit staff was supplied with data showing that the time
recorded to the CNCS grants during calendar year 2005 (the fxst year of the Governor's Office on-line
Time and Effort system), combined with the written allocation policy for support and indirect staff and
adjustments made in January 2006, resulted in a total under-charge to the CNCS grants and the CNCS
match of $2.756.

While OMB Circular A-87 does require signed activity reports, ASMB C-10, Cost Principles and
Procedures for Developing Cost Allocation Plan and Indirect Cost Rates for Agreements with the
Federal Government, Attachment B, Question 3-16 says that a "digital signature" (occurring when an
employee logs on to the PAR system with a logon ID and a secret password) constitutes an acceptable
alternative to an employee signature as long as the governmental unit can demonstrate and document
that only the employee's action would result in the identification of the activities to be charged, and that
it complies with the other criteria in Attachment B, paragraph 1l.h(5) (The internet version of ASMB
C-10 does actually say paragraph 11. However, paragraph 8 is likely what is meant.)

The GOCYF Time and Effort system does comply with A-87, Attachment B, paragraph 8.h (5). The
system reflects after-the-fact labor; it accounts for the total activity of direct charge employees, it is
prepared with each two week pay period, it is digitally signed by the direct charge employee, and its
data is used to adjust initial budget estimates if a difference of greater than 10% is determined. And the
GOCYF Time and Effort system complies with ASMB C-10 since the Time and Effort system is
entered into only by the employee who logs onto the GOCYF computer system with a unique user ID
and user password established by that user.
                                    1700 WEST WASHINGTON SUITE 101 PHOENIX AZ 85007
                                               MAIN PHONE 602-542-4043
                                                FAtSlMlLlE &02-54W520
                                             WWW.wvE-
Therefore, the ody items in quedon are the allocation of support staff and indirect staffbased upon
Time and Effort entries by direct charge staff. The Commission believes that allocating support and
indirect staff based upon time spent by direct charge staff complies with the OMB requirement that
central costs be identified and assigned to benefited aetivities on a reasonable and consistent basis.

Bullet 3: The Commission will begin to reconcile all FSRs with the official State of Arizona's
accounting system, Arizona Financial Information System (MIS) to accurately identi@ actual costs of
the Commission for the reporting period The Commission will enter actual costs into the quarterly
FSRs instead of accumulated sub grantee costs.

Bullet 4: The Commission is not respmisible for preparing the State of Arizona's OMB Circular A-133
Schedule of Expenditures of Federal Awards (SEFA). The Commission is housed within the WCYF
and therefore included as paxt of the State of Arizona's A-133 Audit which is prqmed by the State of
Arizona Auditor General's Office. The Commission will however, begin to identi@and reconcile all
CNCS funds awarded on the SEFA and retain the documentation in the appropriate grant files.

Bullet 5: The Commission is committed to timely reporting and adequate fhancial management
systems. It has been mhowledged that one FSR was not submitted in a timely manner. All
subsequent, FSRs will be submitted in a timely manner, or in the case where an extension is needed, the
Commission will obtain an exmion, in writing, from the WCS,

Again, we would like to express our appreciation to Cotton & Company and we look forward to
working with the Audit Resolution Specialist and the CNCS to resolve all issues.

Sincerely,



Executive Director
Arizana Governor's Commission on Service md Volunt&sn

cc:    Irene S. Jacobs, Governor's Office
                                        for Childrent Youth and Families
       Lauren Kielsmeier, Governor's Division for Community and Youth Development
       Mary L. Jackson, Governor's Division for Finance and Administration
          APPENDIX B

          RESPONSE
CORPORATION'S          REPORT
                TO AUDIT
To:           Carol Bates, Assistant Inspegor General for Audits

From:

Cc:           Kristin h c S w d , Director of ~ m e r i h q d
              Sherry Wright, Audit Resolution Coordinator, Office of the CFO

Date:         August 3 1,2006

Subject:      Response to OIG Draft Audit Report 06-37: Audit of Corporation for National
              and Community Service Grants Awarded to Arizona Govemor's Commission on
              Service and Volunteerism


Thank you for the opportunity to review the draft audit report of the Corporation's grants
awarded to the Arizona Govemor's Commission. We are pleased the questioned costs were less
than .5% of the costs incurred. The Commission addressed most of the questioned costs in its
response and, in many cases, has already provided supporting documentation or concurred and
started collection. We are addressing only one finding at this time.

The auditors questioned health care coverage provided to part-time members serving in a full-
time capacity because the program did not have written approval from the Corporation.
However, the Corporation's grant provisions indicate the "coverage must be approved in the
grant ur via prior written approval from the Corporation's Office of Grants Management." If the
sub-grantee indicated in its original grant application that members would be serving in a full-
time capacity, the Corporation's permission was implicit in the approval and award of the grant.
Therefore, we anticipate the costs will be allowed.

We will respond to all findings and recommendations in our management decision when the final
audit is issued; we have reviewed the findings in detail; and worked with the Arizona
Commission to resolve the audit.




                           1201 New York Avenue, NW    *
                                                       Washlngton, DC 20525
                                 202-606-5000 w w w n a t ~ o n a l s e r v ~org
                                                                              ~e          USA=
                                                                                          Freedom Corps
                           Senlor Corps   * AmerKorps * Learn and Serve Amer~ca           1hr P   ~   ~   ~LC It,s ,   ~   ~   ,   ,
